No. 21A85
IN THE

Supreme Court of the United States
UNITED STATES OF AMERICA,
Applicant,
v.
STATE OF TEXAS, et al.,
Respondents.
ON APPLICATION TO VACATE THE STAY PENDING APPEAL ISSUED BY
THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

CERTIFICATE OF SERVICE
I, Alan E. Schoenfeld, a member of the bar of this Court, hereby certify that, on
this 18th day of October, 2021, all parties required to be served have been served copies
of the Motion for Leave to File Brief As Amici Curiae and Brief of Planned Parenthood
of Greater Texas Surgical Health Services, Planned Parenthood South Texas Surgical
Center, Comprehensive Health of Planned Parenthood Great Plains, Planned
Parenthood of Arkansas & Eastern Oklahoma, Planned Parenthood Center for Choice,
and Planned Parenthood of The Rocky Mountains as Amici Curiae in Support of The
United States of America in this matter to the addresses on the attached service list by
overnight courier or first class mail.

ALAN E. SCHOENFELD
Counsel of Record
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 937-7294
alan.schoenfeld@wilmerhale.com

SERVICE LIST
By Overnight Courier
JUDD EDWARD STONE, II
OFFICE OF THE ATTORNEY GENERAL
OFFICE OF THE SOLICITOR GENERAL
209 W. 14th Street
Austin, TX 78701
(512) 936-1700
Judd.Stone@oag.texas.gov
AMY SNOW HILTON, ASSISTANT ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL FOR THE STATE OF TEXAS
300 W. 15th Street, 11th Floor
William P. Clements Building
Austin, TX 78701
(512) 936-1327
amy.hilton@oag.texas.gov
JONATHAN F. MITCHELL
111 Congress Avenue, Suite 400
Austin, TX 78701-0000
(512) 686-3940
jonathan@mitchell.law
ANDREW BOWMAN STEPHENS
Assistant Attorney General
HEATHER GEBELIN HACKER
HACKER STEPHENS, L.L.P.
108 Wild Basin Road, S., Suite 250
Austin, TX 78746
512-399-3022 / andrew@hackerstephens.com
(512) 399-3022 / heather@hackerstephens.com
By First Class Mail
BETH ELLEN KLUSMANN
LEIF A. OLSON
NATALIE DEYO THOMPSON
WILLIAM THOMAS THOMPSON
BENJAMIN WALTON
OFFICE OF THE ATTORNEY GENERAL FOR THE STATE OF TEXAS
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
(512) 936-1914 / beth.klusmann@oag.texas.gov
(512) 936-1414 / leif.olson@oag.texas.gov
(512) 936-1820 / natalie.thompson@oag.texas.gov
(512) 936-2567 / will.thompson@oag.texas.gov
(512) 463-0447 / benjamin.walton@oag.texas.gov

